      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




February 9, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Federal Reimbursement Claimed by North Carolina for Medicaid
               Personal Care Services Claims Submitted by Shipman Family Home Care, Inc.
               (A-04-09-04041)


Attached, for your information, is an advance copy of our final report on Medicaid personal care
services claimed by Shipman Family Home Care, Inc. We will issue this report to the North
Carolina Department of Health and Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Peter J. Barbera, Regional
Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-04041.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, S.W., Suite 3141
                                                                         Atlanta, GA 30303



February 14, 2011

Report Number: A-04-09-04041

Mr. Lanier M. Cansler
Secretary
North Carolina Department of Health and Human Services
2001 Mail Service Center
Raleigh, NC 27699-2001

Dear Mr. Cansler:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Federal Reimbursement Claimed by North
Carolina for Medicaid Personal Care Services Claims Submitted by Shipman Family Home
Care, Inc. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-09-04041 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Lanier M. Cansler


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



     REVIEW OF FEDERAL
 REIMBURSEMENT CLAIMED BY
    NORTH CAROLINA FOR
  MEDICAID PERSONAL CARE
 SERVICES CLAIMS SUBMITTED
     BY SHIPMAN FAMILY
      HOME CARE, INC.




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-04-09-04041
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In North Carolina, the Department of Health and Human Services (the State agency) supervises
the administration of the Medicaid program. Within the State agency, the Division of Medical
Assistance (DMA) administers the Medicaid program. DMA’s Facility and Community Care
Section manages the personal care services program. Each beneficiary’s physician is responsible
for authorizing personal care services, and Medicaid-enrolled home care agencies provide
service delivery. During the period July 1, 2005, through June 30, 2007, the State agency
claimed personal care services expenditures totaling approximately $613 million ($391 million
Federal share).

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to individuals in
their homes and not residing in hospitals, nursing facilities, intermediate care facilities for the
mentally retarded, or institutions for mental diseases. Medicaid beneficiaries are authorized for
personal care services by a physician in accordance with a plan of treatment or with a service
plan approved by the individual State. Pursuant to North Carolina’s administrative code, (1) the
beneficiary of the service must have a medical diagnosis that warrants a physician’s care and
must be under the direct and ongoing care of the physician prescribing the services, (2) the
beneficiary’s medical condition must be stable, (3) services must be medically necessary, and
(4) services must be provided by a State-licensed home care agency approved to provide in-home
aide services. Examples of personal care services include cleaning, shopping, grooming, and
bathing.

Shipman Family Home Care, Inc., is a private for-profit corporation located in Greensboro,
North Carolina. The Greensboro location is 1 of 19 Shipman offices throughout North Carolina
providing personal care services, and this location also functions as the administrative office for
the corporation. We will refer to the Greensboro location as “Shipman” throughout this report.
During the period July 1, 2005, through June 30, 2007, Shipman claimed personal care services
expenditures totaling approximately $5.5 million ($3.5 million Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Shipman’s claims for
Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.




                                                 i
SUMMARY OF FINDINGS

The State agency did not ensure that all of Shipman’s claims for Federal Medicaid
reimbursement for personal care services met Federal and State requirements. Of the 100
sampled claim line items (items) in our random sample, 44 complied with Federal and State
requirements, but 56 did not.

Of the 56 items that were not compliant, 24 contained more than 1 deficiency:

   •   For 33 items, services were not in accordance with the plan of care.

   •   For 19 items, there were no nursing visits for supervision and/or assessment.

   •   For 14 items, there was a lack of required documentation.

   •   For 12 items, the qualifications of the in-home care providers were not verified.

   •   For four items, there was no physician order.

   •   For one item, a family member provided services.

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor Shipman’s personal care services program for compliance with certain Federal and State
requirements. The State agency has been working with the North Carolina legislature to develop
new procedures and controls for the personal care services program. The North Carolina Current
Operations and Capital Improvement Appropriations Act of 2009 funded an initiative effective
July 1, 2009, which included legislatively mandated requirements for cost containment.

Based on our sample results, we estimated that the State agency improperly claimed $1,283,037
(Federal share) for unallowable personal care services during the period July 1, 2005, through
June 30, 2007.

In addition to our sample review, we conducted interviews with 42 of the 86 beneficiaries in our
sample of 100 items. The total number of beneficiaries was less than 100 because some
beneficiaries had more than 1 sampled item. Of the 42 beneficiaries interviewed, 36 rated the
quality of daily care as good or very good, 5 rated it as average, and 1 rated it as poor.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,283,037 to the Federal Government and

   •   continue its efforts to implement additional procedures and controls for monitoring the
       providers of personal care services for compliance with Federal and State requirements.



                                                ii
SHIPMAN FAMILY HOME CARE, INC., COMMENTS

In written comments on our draft report, Shipman acknowledged that some of its claims were
noncompliant with applicable Federal and State laws and regulations governing the provision of
personal care services; however, Shipman believed that these claims were anomalous and not
representative of its general compliance efforts. Shipman provided information on the actions
that it had taken in response to our audit findings.

Shipman’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Shipman’s comments, we did not make any revisions to our findings. Before
issuing our draft report, we discussed each of the deficiencies cited in the report with Shipman
officials and provided Shipman the opportunity to provide additional, or alternative,
documentation to support the sampled items. Shipman was unable to provide such support. We
also obtained Shipman’s verbal concurrence that 56 of the 100 items that we reviewed failed to
meet Federal and State requirements for reimbursement of personal care services.

We do not concur that the 56 items were anomalous and not representative of Shipman’s general
compliance efforts. As discussed in the report, 24 of the 56 items (43 percent) contained more
than 1 deficiency.

STATE AGENCY COMMENTS

The State agency concurred with all of our findings and found the recommendations to be both
reasonable and appropriate. The State agency summarized its most recent actions to address
fraud and abuse in the Medicaid In-Home Personal Care Services program.

The State agency’s comments are included in their entirety as Appendix E.




                                               iii
                                                   TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            North Carolina’s Medicaid Program ..................................................................1
            North Carolina’s Personal Care Services Program ............................................1
            Shipman Family Home Care, Inc.......................................................................2
            Federal and State Requirements Related to Personal Care Services .................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE ...........................5

          NO NURSING VISITS FOR SUPERVISION AND/OR ASSESSMENT .............5

          LACK OF REQUIRED DOCUMENTATION .......................................................6

          QUALIFICATIONS NOT VERIFIED ....................................................................6

          NO PHYSICIAN ORDER .......................................................................................7

          FAMILY MEMBER PROVIDED SERVICES .......................................................7

          CAUSE OF UNALLOWABLE ITEMS ..................................................................7

          ESTIMATION OF THE UNALLOWABLE AMOUNT ........................................8

          RECOMMENDATIONS .........................................................................................8

          SHIPMAN FAMILY HOME CARE, INC., COMMENTS ....................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................8

          STATE AGENCY COMMENTS ............................................................................9

OTHER MATTER.............................................................................................................9




                                                                     iv
APPENDIXES

    A: SAMPLING METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: RESULTS FOR EACH SAMPLED ITEM

    D: SHIPMAN FAMILY HOME CARE, INC., COMMENTS

    E: STATE AGENCY COMMENTS




                                v
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

North Carolina’s Medicaid Program

In North Carolina, the Department of Health and Human Services (the State agency) supervises
the administration of the Medicaid program. Within the State agency, the Division of Medical
Assistance (DMA) administers the Medicaid program. DMA uses the Medicaid Management
Information System (MMIS), a computerized payment and information reporting system, to
process and pay Medicaid claims, including personal care service claims. The Federal
Government’s share of costs is known as the Federal medical assistance percentage (FMAP).
From July 1, 2005, to September 30, 2005, the FMAP in North Carolina was 63.63 percent; from
October 1, 2005, to September 30, 2006, the FMAP was 63.49 percent; and from October 1,
2006, to June 30, 2007, the FMAP was 64.52 percent.

North Carolina’s Personal Care Services Program

North Carolina’s personal care services program (the program) is managed by DMA’s Facility
and Community Care Section. Although DMA is responsible for the program, each
beneficiary’s physician is responsible for authorizing personal care services, and Medicaid-
enrolled home care agencies arrange for service delivery. Title 10A § 13J.0901(29) of the North
Carolina Administrative Code (NCAC) defines personal care services as including tasks that
range from assistance to an individual with basic personal hygiene, grooming, feeding, and
ambulation to medical monitoring and other health-care-related tasks. Pursuant to Title 10A
NCAC § 22O.0120(a), such services must be medically necessary and the beneficiary must be
under the direct and ongoing care of the physician prescribing the services. Further, the
beneficiary of these services must have a medical diagnosis that warrants a physician’s care, and
the beneficiary’s medical condition must be stable. During the period July 1, 2005, through
June 30, 2007, the State agency claimed personal care services expenditures totaling
approximately $613 million ($391 million Federal share).

Under North Carolina’s State plan (Attachment 3.1-A.1, 23.f), a Medicaid beneficiary can
receive up to 3.5 hours of personal care service a day and may not exceed 60 hours in a month.
Those Medicaid beneficiaries who have personal care needs that exceed the service limitations
can qualify to receive up to an additional 20 hours of service a month.



                                                1
Shipman Family Home Care, Inc.

Shipman Family Home Care, Inc., is a private for-profit corporation located in Greensboro,
North Carolina. The Greensboro location is 1 of 19 Shipman offices throughout North Carolina
providing personal care services, and this location also functions as the administrative office for
the corporation. We will refer to the Greensboro location as “Shipman” throughout this report.
During the period July 1, 2005, through June 30, 2007, Shipman claimed personal care services
expenditures totaling approximately $5.5 million ($3.5 million Federal share).

At the time of our audit, Shipman employed 259 in-home aides and provided personal care
services to 290 Medicaid beneficiaries. The Director of Nursing and the Compliance Director
were registered nurses (RN), and both were full-time employees whose duties were primarily
administrative. Shipman contracted with two additional RNs who conducted beneficiary
assessments, developed plans of care, and supervised the in-home aides.

Federal and State Requirements Related to Personal Care Services

The State agency and Shipman must comply with Federal and State requirements in determining
whether beneficiaries are eligible for personal care services. Pursuant to section 1905(a)(24) of
the Act and implementing Federal regulations (42 CFR § 440.167), personal care services must
be (1) authorized for an individual by a physician in a plan of treatment or in accordance with a
service plan approved by the individual State; (2) provided by an individual who is qualified to
provide such services and who is not a member of the individual’s family; and (3) furnished in a
home or, at the State’s option, in another location.

Federal regulations at 2 CFR part 225 (incorporating Office of Management and Budget Circular
A-87) establish principles and standards for determining allowable costs incurred by State and
local governments under Federal awards. Section C.1.c. of Appendix A of 2 CFR part 225
provides that to be allowable, costs must be authorized or not prohibited by State or local laws or
regulations.

Title 10A of NCAC § 22O.0120 establishes coverage requirements for North Carolina’s
program. These requirements include that personal care services must be authorized by a
physician and meet the following criteria: (1) the beneficiary of services must have a medical
diagnosis that warrants a physician’s care and must be under the direct and ongoing care of the
prescribing physician, (2) the beneficiary’s medical condition must be stable, (3) services must
be medically necessary, and (4) services must be provided by a State-licensed home care agency
approved to provide in-home aide services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Shipman’s claims for
Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.



                                                 2
Scope

Our audit period covered July 1, 2005, through June 30, 2007. Our sampling frame consisted of
132,650 claim line items (items) taken from North Carolina’s Medicaid paid claims, totaling
$5,525,548 ($3,528,156 Federal share), submitted by Shipman.

During our audit, we did not review the overall internal control structure of the State agency or
Shipman. Rather, we limited our internal control review to the objective of our review.

From July through October 2009, we conducted fieldwork at the State agency’s offices and the
MMIS fiscal agent’s office in Raleigh, North Carolina; Shipman’s office in Greensboro, North
Carolina; and physician offices and beneficiary residences located throughout the Greensboro,
North Carolina, metropolitan area.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and regulations, as well as State policy
        guidelines;

   •    held discussions with State agency officials to gain an understanding of the personal care
        services program;

   •    created a sampling frame of 132,650 items of personal care services greater than $28.79
        that Shipman submitted for Medicaid reimbursement (Appendix A);

   •    selected a random sample of 100 items, for which we:

        o analyzed Medicare and Medicaid claim data to determine whether the beneficiary was
          residing in a hospital, nursing facility, intermediate care facility for the mentally
          retarded, or an institution for mental diseases on the date of service;

        o analyzed Medicaid claim data to determine whether duplicate or prohibited services
          were performed on the date of service and whether daily or monthly service limits
          were exceeded;

        o reviewed Shipman’s documentation supporting the item;

        o reviewed documentation from the physician ordering the personal care services to
          confirm whether a medical professional had examined the beneficiary before the
          order was signed; and




                                                 3
           o visited the beneficiary, if available, associated with the item to inquire about the
             personal care services he or she received; 1 and

      •    estimated the unallowable Federal Medicaid reimbursement (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State agency did not ensure that all of Shipman’s claims for Federal Medicaid
reimbursement for personal care services met Federal and State requirements. Of the 100
sampled items in our random sample, 44 complied with Federal and State requirements, but 56
did not. Of the 56 items, 24 contained more than 1 deficiency. The table summarizes the
deficiencies noted and the number of items that contained each type of deficiency. See
Appendix C for the results for each item.

                                Summary of Deficiencies in Sampled Items
                                                                                         Number of
                            Type of Deficiency                                        Unallowable Items 2
    Services not in accordance with plan of care                                             33
    No nursing visits for supervision and/or assessment                                          19
    Lack of required documentation                                                               14
    Qualifications not verified                                                                  12
    No physician order                                                                            4
    Family member provided services                                                               1

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor Shipman’s personal care services program for compliance with certain Federal and State
requirements.

Based on our sample results, we estimated that the State agency improperly claimed $1,283,037
(Federal share) for unallowable personal care services from July 1, 2005, through June 30, 2007.




1
  Because of various reasons (e.g., the beneficiaries were deceased, declined to be interviewed, or could not be
located), we were able to visit only 42 of the 86 beneficiaries. Some beneficiaries had more than 1 sampled item,
and as a result, there were 86 beneficiaries in our sample of 100 items.
2
    The total exceeds 56 because 24 items contained more than 1 error.


                                                           4
SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE

Pursuant to section 1905(a)(24)(A) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 10A NCAC § 13J.1107(a), personal care services must be provided in
accordance with a physician-authorized plan of care.

For 33 of the 100 items in our sample, the services provided were not in accordance with the
beneficiary’s authorized plan of care. For 32 of the 33 items, Shipman did not provide either the
type or duration of the services prescribed in the plan of care, as follows:

    •   For 28 items, Shipman failed to provide at least 1 of the tasks specified in the plan of
        care; however, it did not reduce its claim to reflect the actual services provided.

    •   For three items, Shipman claimed more units of service than prescribed in the plan of
        care; however, there was no documentation to support the deviation from the plan of care.

    •   For one item, Shipman provided services that were not included in the plan of care. The
        plan of care prescribed 9 hours of services per week (3 hours a day on Monday,
        Wednesday, and Friday). However, Shipman claimed an additional 3 hours of service on
        Thursday with no documentation to support the deviation from the plan of care.

For the remaining item, no plan of care covered the date of service. The physician determined
that the beneficiary no longer required assistance and denied Shipman’s request to authorize a
plan of care for continued personal care services. Contrary to the physician’s determination,
Shipman failed to discontinue the services in a timely manner.

NO NURSING VISITS FOR SUPERVISION AND/OR ASSESSMENT

Pursuant to 10A NCAC § 13J.1110(d) and (f), an appropriate supervisor 3 must make a
supervisory visit to each beneficiary’s home at least quarterly, with or without the in-home aide
present, and at least annually while the in-home aide is providing care to the beneficiary. The
home care agency must maintain documentation of these visits.

Pursuant to 10A NCAC § 13J.1202, an appropriate professional must visit the beneficiary’s
home at least quarterly and assess the beneficiary’s general condition, progress, and response to
services provided and revise the plan of care if necessary based on the beneficiary’s needs.
Documentation of these visits shall be maintained in the beneficiary’s service record. If the same
professional is assigned responsibility for the quarterly assessment and supervision of the
in-home aide, these functions may be conducted during the same home visit.

For 19 of the 100 items in our sample, Shipman failed to provide documentation that
demonstrated supervision of the in-home aide, and, in 1 instance, Shipman did not demonstrate
that a nursing assessment of the beneficiary’s general condition had been performed.
3
 North Carolina’s State plan requires that in-home aides work under the supervision of an RN (Attachment 3.1-A.1,
23.f.).


                                                        5
LACK OF REQUIRED DOCUMENTATION

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. The beneficiary’s service records must contain a record of
all services provided, including dates and times of the service, with entries dated and signed by
the individual providing the service (10A NCAC § 13J.1402(a)(2)(C)).

Pursuant to 10A NCAC § 13J.1007(a), home care agencies must provide each beneficiary with a
written notice of his or her rights and responsibilities before furnishing care or during the initial
evaluation visit before the initiation of services. The home care agency is required to maintain
documentation showing that beneficiaries were informed of their rights and responsibilities.

For 14 of the 100 items in our sample, Shipman lacked evidence that it had complied with 1 or
more of the requirements detailed above. In all 14 items, at least 1 of the following deficiencies
occurred:

   •   The service log for the date of service could not be located.

   •   The employee time record did not support the number of hours claimed.

   •   There was no evidence that the beneficiary was informed of his or her rights and
       responsibilities before the initiation of services.

QUALIFICATIONS NOT VERIFIED

Pursuant to section 1905(a)(24)(B) of the Act and implementing Federal regulations (42 CFR
§ 440.167(a)(2)), personal care services must be provided by an individual who is qualified to
provide such services. In-home care providers who are not subject to occupational licensing
laws can only be assigned care activities or tasks for which they have correctly demonstrated
competency to an appropriate individual. The demonstration of competence for assigned care
tasks or activities must be documented by the home care agency (10A NCAC § 13J.1110(b)).

Pursuant to the North Carolina General Statute § 131E-265, a home care agency’s offer of
employment to applicants who will fill positions that do not require an occupational license is
conditioned on their consent to a criminal history record check. The home care agency must
consider any convictions revealed by the criminal history record check when determining
whether to hire the applicant.

For 12 of the 100 items in our sample, Shipman did not verify the qualifications of the
individuals who provided in-home care. For seven of these items, there was no evidence that
Shipman completed a criminal history record check of the in-home aide. For the remaining five
items, there was no evidence that the in-home aide had demonstrated competency for all of the
services provided.




                                                  6
NO PHYSICIAN ORDER

Pursuant to section 1905(a)(24)(A) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 10A NCAC § 22O.0120(a), personal care services must be authorized by a
physician. Orders for personal care services must be signed by a physician, but care may
commence in the interim with a verbal order. The home care agency must obtain the physician’s
signature within 60 days from the date of the verbal order (10A NCAC § 13J.1302(a) and (d)).

For 4 of the 100 items in our sample, Shipman did not obtain the proper physician’s
authorization. For three of these items, Shipman initiated personal care services before obtaining
either a written or verbal order from the physician, and, in one instance, the physician
subsequently denied the personal care services because the beneficiary did not qualify for
benefits. For the remaining item, Shipman did not obtain the physician’s signature within 60
days from the date of the verbal order.

FAMILY MEMBER PROVIDED SERVICES

Pursuant to section 1905(a)(24)(B) of the Act and implementing Federal regulations (42 CFR
§ 440.167(a)(2)), personal care services may not be provided by a member of the beneficiary’s
family. Title 10A NCAC § 22O.0410(c) states that a member of the beneficiary’s immediate
family may not be employed by a provider agency to provide reimbursable personal care
services. Immediate family members are defined as spouses, children, parents, grandparents,
grandchildren, and siblings and include corresponding step- and in-law relationships.

For 1 of the 100 items in our sample, an immediate family member provided the personal care
services. Shipman’s files contained documentation that the in-home aide was the beneficiary’s
mother. Both the in-home aide and the beneficiary confirmed the family member relationship.

CAUSE OF UNALLOWABLE ITEMS

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor Shipman’s program for compliance with certain Federal and State requirements. In June
2006, the State agency implemented a program of limited onsite monitoring visits (15 home care
agencies each month) to review the case records for compliance with Federal and State
requirements. The program also included beneficiary interviews and quarterly regional training.
However, because of the substantial growth in North Carolina’s personal care services program,
the State agency’s limited monitoring efforts were inadequate.

The State agency has worked with the North Carolina legislature in developing new procedures
and controls for the program. The North Carolina Current Operations and Capital Improvement
Appropriations Act of 2009 (Session Law 2009-451) funded an initiative effective July 1, 2009,
which included mandated requirements for cost containment. At the outset of this initiative, an
independent contractor reassessed and reauthorized personal care services for approximately
37,600 program participants. The restructured program includes involvement by the
beneficiary’s physician, independent assessments, and independent review of the plans of care to



                                                7
ensure the appropriate utilization of personal care services. The program provides for automated
tools and includes consistency among the assessments, service authorizations, plans of care,
provider service logs, and claims for reimbursement.

ESTIMATION OF THE UNALLOWABLE AMOUNT

Of the 100 personal care services items sampled, 56 items were not in compliance with Federal
and State requirements. Based on our sample results, we estimated that the State agency
improperly claimed $1,283,037 (Federal share) for unallowable personal care services during the
period July 1, 2005, through June 30, 2007. The details of our sample results and estimates are
shown in Appendix B.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,283,037 to the Federal Government and

   •   continue its efforts to implement additional procedures and controls for monitoring the
       providers of personal care services for compliance with Federal and State requirements.

SHIPMAN FAMILY HOME CARE, INC., COMMENTS

In written comments on our draft report, Shipman acknowledged that some of its claims were
noncompliant with applicable Federal and State laws and regulations governing the provision of
personal care services; however, Shipman believed that these claims were anomalous and not
representative of its general compliance efforts. Shipman provided information on the actions
that it had taken in response to our audit findings.

Shipman’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Shipman’s comments, we did not make any revisions to our findings. Before
issuing our draft report, we discussed each of the deficiencies cited in the report with Shipman
officials and provided Shipman the opportunity to provide additional, or alternative,
documentation to support the sampled items. Shipman was unable to provide such support. We
also obtained Shipman’s verbal concurrence that 56 of the 100 items reviewed failed to meet
Federal and State requirements for reimbursement of personal care services.

We do not concur that the 56 items were anomalous and not representative of Shipman’s general
compliance efforts. As discussed in the report, 24 of the 56 items (43 percent) contained more
than 1 deficiency.




                                               8
STATE AGENCY COMMENTS

The State agency concurred with all of our findings and found the recommendations to be both
reasonable and appropriate. The State agency summarized its most recent actions to address
fraud and abuse in the Medicaid In-Home Personal Care Services program.

The State agency’s comments are included in their entirety as Appendix E.

                                                OTHER MATTER

We interviewed 42 of the 86 beneficiaries in our sample to determine whether quality-of-care
issues existed and whether any service-related problems existed. 4 We did not interview the 44
remaining sampled beneficiaries because they declined to be interviewed, could not be located,
or were deceased. Of the 42 beneficiaries interviewed, 36 rated the quality of daily care as good
or very good, 5 rated it as average, and 1 rated it as poor.

Of the 42 beneficiaries interviewed, 16 stated that they had experienced an issue with the
performance or professionalism of in-home aides at some point while receiving care from
Shipman; however, Shipman resolved these issues to the satisfaction of the beneficiaries.




4
    The total number of beneficiaries is less than 100 because some beneficiaries had more than 1 sampled item.



                                                           9
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid paid claims for personal care services provided by the
Greensboro location of Shipman Family Home Care, Inc. (Shipman), during the period July 1,
2005, through June 30, 2007, that the North Carolina Department of Health and Human Services
claimed for Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame consisted of 132,650 claim line items totaling $5,525,548 ($3,528,156
Federal share) for personal care services provided by Shipman during our audit period.

SAMPLING UNIT

The sampling unit was a personal care service claim line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the unallowable payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                    Sample Results

                                                           Number
                                           Value of            of         Value of
Frame     Value of Frame    Sample          Sample        Unallowable    Unallowable
  Size    (Federal Share)    Size       (Federal Share)     Items          Items
132,650     $3,528,156        100           $2,608            56           $1,181


                          Estimates of Unallowable Items
              (Limits Calculated for a 90-Percent Confidence Interval)

                   Point estimate                    $1,566,109
                   Lower limit                        1,283,037
                   Upper limit                        1,849,181
                                                               Page 1 of 3


       APPENDIX C: RESULTS FOR EACH SAMPLED ITEM

                                 Legend
   A    Services not in accordance with plan of care
   B    No nursing visits for supervision and/or assessment
   C    Lack of required documentation
   D    Qualifications not verified
   E    No physician order
   F    Family member provided services


      OIG Review Determinations for the 100 Sampled Items
 Item                                                    Number
Number    A       B      C        D       E       F     of Errors
   1      X                                                 1
   2                                                        0
   3      X                                                 1
   4      X              X                                  2
   5                                                        0
   6                                                        0
   7                                                        0
   8      X       X                                         2
   9      X                                                 1
  10              X                                         1
  11      X              X                                  2
  12                              X                         1
  13                                                        0
  14                     X                                  1
  15                                                        0
  16                              X                         1
  17              X               X                         2
  18      X              X                                  2
  19      X              X                                  2
  20      X              X                                  2
  21      X                                                 1
  22                                      X                 1
  23                              X                         1
  24                              X                         1
  25                                                        0
  26                                                        0
  27                                                        0
  28                                                        0
  29      X                                                 1
  30      X       X                                         2
                                        Page 2 of 3


 Item                            Number
Number   A   B   C   D   E   F   of Errors
  31     X                           1
  32     X       X                   2
  33     X   X                       2
  34                                 0
  35     X                           1
  36         X                       1
  37                                 0
  38                                 0
  39         X                       1
  40                                 0
  41     X                           1
  42                                 0
  43                                 0
  44                                 0
  45                                 0
  46         X                       1
  47                                 0
  48         X           X           2
  49                     X           1
  50     X   X       X               3
  51                                 0
  52                                 0
  53                                 0
  54                                 0
  55                                 0
  56         X                       1
  57                                 0
  58     X   X                       2
  59     X           X               2
  60                                 0
  61                                 0
  62                                 0
  63                                 0
  64                                 0
  65                                 0
  66                 X               1
  67                                 0
  68                                 0
  69     X           X               2
  70     X                           1
  71                                 0
  72                                 0
                                                      Page 3 of 3


 Item                                         Number
Number      A      B       C     D    E   F   of Errors
   73                                             0
   74                                             0
   75                                             0
   76                                             0
   77       X                                     1
   78                                             0
   79       X                                     1
   80                                             0
   81       X                                     1
   82                                             0
   83                      X     X                2
   84              X       X     X                3
   85       X              X                      2
   86       X              X                      2
   87                                             0
   88       X      X       X                      3
   89                                             0
   90       X              X                      2
   91              X                              1
   92              X       X                      2
   93       X                                     1
   94              X                              1
   95                                     X       1
   96              X             X                2
   97       X                                     1
   98       X                                     1
   99       X      X                              2
  100                                 X           1
            33      19     14    12   4   1
Total With Errors                                56
Total With More Than One Error                   24
                                                                                                  Page 10f4


APPENDIX D: SHIPMAN FAMILY HOME CARE, INC., COMMENTS 





                                Shipman Family Home Care, Inc.
                                    1614 East Market Street
                                Greensboro, North Carolina 27401


September 10,2010


Peter J. Barbera
Office of Audit Services, Region IV
Office of Inspector General
U.S. Department of Health and Human Services
61 Forsyth Street, SW, Suite 3T41
Atlanta, Georgia 30303

         Re: 	   Shipman Family Home Care, Inc. 

                 Report Number A-04-09-04041 


Dear Mr. Barbera:

        On behalf of Shipman Family Home Care, Inc. ("SFHC"), I am writing in response to
your letter dated July 28,2010 regarding Report Number A-04-09-04041. As you requested, this
letter will set forth SFHC's written comments in response to the U.S. Department of Health and
Human Services Office of Inspector General ("OIG") draft report entitled Review of Federal
Reimbursement Claimed by North Carolina for Medicaid Personal Care Services Claims
Submitted by Shipman Family Home Care, Inc. (the "Draft Report").

I. 	     BACKGROUND

       SFHC is a North Carolina corporation enrolled with the North Carolina Department of
Health and Human Services Division of Medical Assistance ("DMA") to provide services to
Medicaid recipients, among other consumers, including, without limitation, Personal Care
Services to consumers requiring such services. From July through October 2009, OIG conducted
an audit of 100 claims paid by DMA for Personal Care Services provided by SFHC between July
1, 2005 and June 30, 2007. OIG found that 56 of the 100 claims reviewed failed to meet State
and Federal requirements for reimbursement of Personal Care Services. In the Draft Report,
OIG alleged that the audited claims had the following deficiencies: (a) services not in
accordance with plan of care; (b) no nursing visits for supervision and/or assessment; (c) lack of
required documentation; (d) qualifications not verified; (e) no physician order; and (f) family
member provided services.

 II. 	   SFHC's RESPONSE

         SFHC is dedicated to providing high-quality, timely, and efficient health care services to
 eligible North Carolina Medicaid beneficiaries. In providing Personal Care SerVices, SFHC
 endeavors to comply with all applicable requirements set forth in DMA Clinical Coverage Policy


 #1751861JDOC
                                                                                                      Page 2 of4




Mr. Peter J. Barbera
September 10, 2010
Page 2

No. 3C: Personal Care Services (the "PCS Policy"), as well as all other State and Federal laws
governing the provision of Personal Care Services to Medicaid beneficiaries. Furthermore,
SFHC makes every effort to ensure that all employees and staff are adequately trained and
knowledgeable with regard to Medicaid coverage requirements for such services.

       In response to the specific deficiencies cited by OIG in the Draft Report, SFHC shows the
following:

       1.       Compliance with Plan of Care

        SFHC acknowledges that some, but not all, of the claims identified by OIG included
services not provided in accordance with the patient's Plan of Care. The claims subject to OIG's
audit were provided by SFHC between July 1, 2005 and June 30, 2007. In November 2005,
DMA significantly revised the PCS Policy, which included changes to the documentation
requirements for Personal Care Services. Although SFHC made every effort' to train its
employees and staff on the new PCS Policy requirements, SFHC believes that many of the
deficiencies cited by OIG were the result of documentation errors caused by the transition to the
revised PCS Policy. Therefore, SFHC believes that these claims are anomalous and not
representative ofSFHC's general compliance efforts.

        As a result of OIG' s audit, however, SFHC has taken measures to reassess its compliance
strategy to ensure that all Personal Care Services are provided in accordance with the PCS
Policy. Specifically, as required under Section 7.7 of the PCS Policy, prior to initiating Personal
Care Services, SFHC develops a Plan of Care for each beneficiary. The Plan of Care is
documented on the last page of the Physician Authorization for Certification and Treatment
("P ACT") form. SFHC will make every effort to ensure that all Personal Care Services provided
to a beneficiary are designed to meet the beneficiary's personal care needs as identified on the
beneficiary'S PACT form, and that all services required under the Plan of Care are provided as
ordered. In that regard, SFHC has revised its Service Log forms so that staff members providing
Personal Care Services can more accurately verify that services are provided in acc9rdance with
the Plan of Care.

       2.       Nursing Visits

        Section 7.9 of the PCS Policy states that "[t]he RN clinical supervisor representing the
PCS provider must conduct a supervisory visit in the recipient's home with the recipient present
within 90 days of the initial assessment visit and at least every 90 days thereafter." SFHC
strives to ensure that nurse supervision visits are conducted in accordance with the,PCS Policy,
and that all nurse supervision visits are documented on the "In-Home Supervisory Visit Report"
and maintained in the beneficiary's medical record.

      SFHC acknowledges that some of the claims identified by OIG failed to include
documentation of nursing visits for supervision and/or assessment. SFHC believes that these

# 17S1861JDOC
                                                                                                       Page 3 of4




Mr. Peter J. Barbera
September 10, 2010
Page 3

claims are anomalous and not representative of SFHC's general compliance efforts.
Nevertheless, SFHC has taken measures to reassess its compliance strategy to ensure that all
Personal Care Services are provided in accordance with the PCS Policy, including, without
limitation, ensuring that nursing visits are performed and documented in a timely fashion.

         3.        Required Documentation

       SFHC makes best efforts to maintain all required documentation necessary to bill
Medicaid for Personal Care Services. For each service, SFHC strives to ensure that the
beneficiary's medical record includes: (a) physician orders for the initial assessment, initiation,
and continuation of Personal Care Services; (b) the PACT form and Plan of Care; (c)
documentation of any required beneficiary reassessments; (d) nurse supervision' reports; (e)
service logs for each date of service in which Personal Care Services are provided; and (f)
documentation that the beneficiary has been informed of his or her rights prior to the initiation of
Personal Care Services. Furthermore, SFHC maintains records verifying the qualifications and
credentials of all individuals providing Personal Care Services on behalf of SFHC.

       SFHC acknowledges that some of the claims identified by OIG failed to include adequate
documentation for the billing of Personal Care Services. While SFHC believes that these claims
are anomalous and not representative of SFHC's general compliance efforts, SFHC has taken
measures to reassess its compliance strategy to ensure that all Personal Care Services are
provided and documented in accordance with the PCS Policy.

         4.        Staff Qualifications

        SFHC maintains records verifying the qualifications and credentials of each of its staff
members, and all individuals providing Personal Care Services on behalf of SFHC are qualified
to provide such services in accordance with Section 6.0 of the PCS Policy.        '

        SFHC acknowledges, however, that some of the claims identified by OIG failed to
include adequate documentation verifying the qualifications and credentials of SFHC's staff
members. SFHC believes that these claims are anomalous and not representative of SFHC's
general compliance efforts. Nevertheless, SFHC has taken measures to reassess its compliance
strategy to ensure that all Personal Care Services are provided in accordance with the PCS
Policy, including, without limitation, maintaining documentation of each staff member's
qualifications and credentials.

         5.        Physician Orders

        As required under Sections 7.1 and 7.2 of the PCS Policy, SFHC obtains physician orders
for the initial assessment, initiation, and continuation of all Personal Care Services. These orders
are maintained in each beneficiary's medical record.


# 1751 86 U ·DOC
                                                                                               Page 4 of4




Mr. Peter J. Barbera
September 10,2010
Page 4

       SFHC acknowledges that some of the claims identified by OIG failed to include adequate
documentation of physician orders for the initial assessment, initiation, and continuation of
Personal Care Services. SFHC believes that these claims are anomalous and not representative
of SFHC~s general compliance efforts. However, as a result of OIG's audit, SFHC has taken
measures to reassess its compliance strategy to ensure that all Personal Care Services are
provided in accordance with the PCS Policy, including, without limitation, confirming that
physician orders are properly documented.

       6.     Service PrOvided by Family Member

        orG identified one claim in which a beneficiary's immediate family member provided
the Personal Care Services in question. SFHC believes that this claim is anomalous and not
representative of SFHC's general compliance efforts. Specifically, at the time of employment.
SFHC requires each employee to sign an acknowledgement form attesting that he or she is not an
"inunediate family member" of any SFHC client) as such term is defined in lOA N.C.A.C.
220.0410(c). Although the employee in question completed such an attestation, SFHC
subsequently discovered that the employee had lied; the employee was in fact related to a SFHC
client. As a result of this incident, the employee in question was terminated. Furthermore,
SFHC now requires employees who have the same last name as any SFHC client to submit a
birth certificate verifying that the employee and client are not related.

TIl.   CONCLUSION

        As discussed in detail above, SFHC acknowledges that some, but not all, of the claims
identified by oro failed to comply with applicable State and Federal laws and policies governing
the provision of Personal Care Services to Medicaid beneficiaries. While SFHC believes that
these claims are anomalous and not representative of SFHC's general compliance efforts, SFHC
has taken measures to reassess its compliance strategy to ensure that all Personal Care Services
are provided in accordance with such laws and policies.

       Please feel free to contact me with any questions or conunents,

       With best regards.




cc;    Sean A. Timmons, Esq.
                                                                                                                                   Page 1 of3


                     APPENDIX E: STATE AGENCY COMMENTS 





                              North Carolina Department of Health and H uman Services 

                                     200 1 l\ b il Service Cen ter' R ~lcigh, North Carolina 27699·200 1 

                                                     Tel 919-733.4534 • F3X 9]9-715- 4645 

Heverly F..JI\,c s Pcruuc. Govcmor                                                                               Lanier M. Cansler. Sccrdary 


                                                             November 19.2010



              Mr. Peler J. Barbera 

              Regional Inspector Gcncl'lIl for Aud it Services 

              Office of Audit Services, Region IV
              Office of Inspector General
              U.S. Department of Health and Human Services 

              61 Forsyth Street. SW. Suile ]T41 

              Atlanta. GA J030] 


              RE:      Repo11 A-04-09-04041

              Dear Mr. Barbera:

              The Department has n:ccivt'd the dmll report referenced above and 1 have distributed it to key
              indiyidnals in ML-dicaid Clinical Policy and Programs, Medicaid Program Integrity, and ML-dicaid
              Audit Sections for review lind comment.

              Please be advised that the Department conc urs with all of the repon findings and finds the
              recom mendations contained therein to be both reasonable and appropriate. Since this report
              covt:rs the period July 1. 2005. to June 30. 2007. I would t~kc this oppon uuity to sum marize the
              Department's more ~ent actions to address froiud and abuse in the M~"dicaid in-home Pl!rsonal
              Care Services (PeS) program.

              res Program Review ~ nd Restructuring
                        1. 	 During the period April 2007 to March 2009, Medicaid conducted 347 on-site home
                             care provider a udits and interviewed 4.273 rando mly selected I'CS recipient s served
                             by these agencies in their homes. T hese reviews were conducted by Registered
                             Nurses experienced in homc cafC serv iccs. T hc purpose of this review was tn
                             dclcmlinc if home ca re agenc ies were in compliance with progTll m requi remcnts, if
                             recipients demonstrated the level of functional dis.1b ility documented in their
                             provider assessment forms. and if recipient~ were sM isfied wit h the services provided
                             by their   resprovider. A final report of program abuses was submitted to the North
                             Carolina General Asse mbly in Apri l 0[2009.

                       2. 	 The State Budget for SFY 2010 (S L 2009-451) addressed program abuses identified
                            in this review by mandating that:

                            a. 	 All current rcs r...-cipienls have their assessments reviewed for medical necessity
                                 and program compliance. The scrvice level of each res recipient is adjustt:d by

                                       1'<><:3,ion: 10 1 Bb l' Dri,·e · Adorns Building · Ral~igh, N.C 2761.13
                                                  An F.qu,1 Opporrunit)" / Mnml'l,,·c Ac.ion l""p~",·cT
                                                                                                         Page 2 of3




Mr. Peter J. Barber.!
Novembcr 19.2010
Page 20fJ

               Medicaid based on this rcvicw. To date. Medicaid has computerized and
               reviewed over 62,000 provider assessment fonns for participants receivin g PCS
               in 2009 and 2010: however, an administrative eourt judge blocked the state from
               making service level adju~tmenTS without a face-to-face assessment.
            b. Medicaid implement independent assessmen t by an entity that docs not provide
               PCS for all ft:c ipients fl."qucsting admission to pes, continuation of I'CS beyond
               the service aUThori7.ation end date, and change of status revicw. This program
               was fully implemented in April 2010 and, to date, the contract IndependenT
               ASSI:5sntcnt Entity has conducted over 12,000 independent pes assessments.
            c. Services providl:d by in-horne aides focu s on hands-on assistance to recipients, as
               detcnnined by their a'i\iessmenl. Nonmedical transportation. errand-running,
               shopping, money management, and guiding and coaching were elim inated from
               thc list of covcred scrvices.
            d. Referring physicians attest to th e medicalnccessity of The requested PCS.

        J. 	 As part of the independent assessment process, Medicaid established an ek~tronic
             interface between the IA management system and the MMIS to ensure that PCS
             provider claims were paid in accordanCIl with the number of approved PCS hours for
             each recipient.
        4. 	 In 2010, the STate lJudgllt for SFY 2011 (SL 2010-31) included additional
             legislatively-mandated changes to the In-Home pes Program. If approved by CMS,
             Medicaid will:

            a. 	 Trans ition qualified PeS participants from the existing progrd.m to two lIew
                 programs: one for children and thei r famili es and one lor adults who are
                 functiona lly disabled. The new program for chi ldren will pro vide a broader
                 scope of bcncfits directed to the needs of chi ldren and their families. The new
                 progra m tor adult~ will focus on recipients who have the highest level of
                 functional disability and most lit risk for placement in a nursing or assisted living
                 facility.
            b. 	 Continue independe nt assessment for both rcs programs.
            c. 	 Exp.1nd the use of the automated progrant management system to better manage
                 the cost, quality, and utilil..it tion of PCS.

The res reviews and data generated by the independent a'isessment program have enabled
Medicaid to identify and address problems with the pes program and to identify home care
agencies that arc not complying with program requirements. The implementation of independent
ass<:ssmcnt ensures that all assessments are valid and reliable and pes providers furnish services
in amounts llpp ropriate to the needs of each fl.~ipient. Independent assessment is eXpl.~ted to
significantly reduce medically unnecessary and excessive PeS.

pes Audits, Pre-. and Post Payme nt Re views
The Medicaid Audit Section is currently conducting post-payment desk reviews of services
provided by randomly selected Shipman sites. Tht.'SC reviews addressed services provided by thi s
agency between January I and June 30, 2008. Two audits have been completed; one has been
issued and is under appeal. The second is in review.
                                                                                                       Page 3 of3




  Mr. Peter J. Barbera
  November 19.2010
  Page 3 of3

  The Medk:aid Program Integrity Section has initiated increased surveillance and review of home
  care agencies, including putting thTL'C extm audit tcams in the fie ld. Home care agencies
  identified as beillg Ouf of compliance by the on-site and provider assessment reviews. as detailed
  in I above. have been targeted for follow-up audits.

  Twelve ofthesc home care agencies, including lhe Shipman Ageucy, have been selcclcd and are
  scheduled for pre-payment reviews of all claims that will include submission of supporting
  documentation to justify all charges for services provided.

  The North Carolina Dcpartmenl of Heal th and Human Services is committed to providing quality
  care and services to all reci pients. as well as eliminating waste and abuse in Medicaid programs
  and services. We will use the information in th is report to take appropriate actions to correct
  these deficiencies in this agency and continue to implement procedures and controls for
  monitoring providers of personal care services, as recommended in the report.


  Sincerely.


C -YiUa.;;".Q,~
  Lanier M. Cansler
